   DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General

     Improved Administration Can Enhance Science
      and Technology Classified Laptop Computer
                       Security

               Unclassified Summary




        Office of Information Technology


OIG-06-63                           September 2006
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                Improved Administration Can Enhance Science and Technology
                           Classified Laptop Computer Security

                                      Unclassified Summary
                                           OIG-06-63

We audited the Department of Homeland Security and its organizational components’ security
programs to evaluate the security and integrity of select government-issued laptop computers. The
report assesses the strengths and weaknesses of security controls over Science and Technology
(S&T) laptop computers. Our objective was to determine whether S&T had established and
implemented adequate and effective security policies and procedures related to the physical security
of and logical access to its classified government-issued laptop computers. To secure S&T data
stored on classified government-issued laptop computers, we made three recommendations to the
Under Secretary for S&T.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
